March 2006
Report No. 06-010


FDIC’s Consolidated Facilities
Management Approach




             AUDIT REPORT
                                                                                                           Report No. 06-010
                                                                                                                March 2006

                                    FDIC’s Consolidated Facilities Management Approach

                                    Results of Audit

                                    The CFM contract structure (implementation of the CFM approach) and the FDIC’s
                                    management of the contract were generally adequate to ensure the efficient operation of
                                    the FDIC’s Washington, D.C., area facilities. An independent engineering firm
                                    determined that the facilities were well-maintained, and a customer satisfaction survey
Background and                      indicated that most FDIC employees were satisfied with the overall physical environment
Purpose of Audit                    in FDIC building space. However, we could not determine whether the CFM contract
                                    resulted in more economical facilities management services due to weaknesses in certain
As part of the FDIC’s strategic     procurement-related internal controls. Specifically:
goal to substantially reduce
corporate operating costs, the          •   The internal control structure for making contract bundling determinations and
Division of Administration                  compliance with applicable statutory and regulatory requirements needs
(DOA) implemented the                       improvement. The FDIC did not clearly demonstrate that contract bundling was
Consolidated Facilities                     necessary and justified and that small business participation was maximized.
Management (CFM) approach
and awarded a $30.4 million
CFM contract to Consolidated            •   The FDIC did not have controls in place to monitor or periodically assess
Engineering Services, Inc.                  whether the intended benefits of the consolidated facilities maintenance contract
(CESI) in April 2003.                       were being achieved and small business participation was being safeguarded.

The CFM approach combined               •   The FDIC completed a major capital improvement project on one of its facilities
13 facilities-related contracts             using the CFM contract. However, a portion of the related costs were expensed
into a single “bundled” contract            rather than capitalized. As a result, the FDIC overstated facilities maintenance
designed to reduce administra-              costs by $1,220,023 and understated assets by the corresponding amount in its
tive costs and simplify the                 accounting records. Further, the capital improvement was awarded to the CFM
management of various                       contractor without a written justification for a noncompetitive procurement or
building services at FDIC-                  documented market research indicating that a noncompetitive contract was
owned headquarters facilities               required and is reasonably priced.
and leased space. A bundled
contract consolidates two or            •   The janitorial services incentive provisions of the CFM contract do not require
more procurement requirements               performance that exceeds the standards in the contract Statement of Work. As a
for goods or services,
                                            result, the FDIC paid janitorial incentives totaling $193,131 through
previously provided under
                                            December 31, 2005 and may pay additional incentives of $318,748 for the
separate contracts, into a single
contract that is likely to be               remaining contract period without obtaining any benefit beyond what is already
unsuitable for award to a small             required in the contract.
business concern. To limit the
impact of contract bundling on      Recommendations and Management Response
small businesses, statutory and
regulatory requirements are         We made recommendations to improve internal control over the process for awarding
designed to ensure that             and monitoring the benefits of bundled contracts, capitalizing costs, and structuring
bundling is necessary and           incentives on the CFM contract.
justified and that expected
benefits of consolidation are       The FDIC generally agreed or provided responsive alternative corrective action to most
quantified and substantial.         of our recommendations. In particular, the FDIC agreed to amend policy guidance to
                                    include coverage of contract bundling and capitalize costs associated with a major capital
The audit objective was to          improvement. The FDIC did not agree to specifically require market research and
determine whether the contract      justifications for noncompetitive procurement for large-dollar-value work orders on
structure and FDIC contract         existing contracts. We are continuing to work with FDIC management to resolve this
management were adequate to         recommendation. If this effort is unsuccessful, we plan to refer the recommendation to
ensure the economical and
                                    the designated audit follow-up official for a final management decision. Additionally,
efficient management of the
                                    FDIC management did not agree with $1,538,771 reported as funds put to better use or
FDIC’s Washington, D.C., area
facilities.                         the $193,131 in questioned costs. These monetary benefits together with management’s
                                    final decision on them will be reported in the OIG’s next Semiannual Report to the
To view the full report, go to
                                    Congress.
www.fdicig.gov/2006reports.asp
                               TABLE OF CONTENTS

BACKGROUND                                                                        1

RESULTS OF AUDIT                                                                  3

FINDINGS AND RECOMMENDATIONS                                                      5

FINDING A: NECESSITY AND JUSTIFICATION OF CFM APPROACH                            5

      Bundling Requirements and Guidance                                          5
      Quantification of Measurably Substantial Benefits                           6
      Impact of Contract Bundling on Small Business Participation in Facilities   9
      Maintenance
      Reporting to the SBA                                                        10
      Conclusion                                                                  10
      Recommendation                                                              10

FINDING B: BENEFITS OF THE CFM CONTRACT                                           11

      Background                                                                  12
      Achievement of Intended Benefits                                            12
      Small Business Participation                                                14
      Recommendations                                                             15

FINDING C: CFM CAPITAL IMPROVEMENT PROJECT                                        15

      Capitalization of Project Costs                                             16
      Justification for Noncompetitive Procurement                                17
      Recommendations                                                             17

FINDING D: CFM JANITORIAL SERVICES INCENTIVE PROVISIONS                           18

      Incentive Provision Structure                                               18
      Recommendations                                                             19

CORPORATION COMMENTS AND OIG EVALUATION                                           19

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                     22
APPENDIX II: CORPORATION COMMENTS                                                 26
APPENDIX III: MANAGEMENT RESPONSE TO RECOMMENDATIONS                              30

TABLES:

Table 1: DOA-estimated Cost Savings Rationale                                      7
Table 2: Comparison of Actual and Estimated CFM Contract Costs                    12
Table 3: FDIC Study of Facilities Operating Costs                                 14
Federal Deposit Insurance Corporation                                                                        Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                         Office of Inspector General
______________________________________________________________________________

DATE:                                     March 30, 2006

MEMORANDUM TO:                            Arleas Upton Kea, Director
                                          Division of Administration

                                          Fred Selby, Director
                                          Division of Finance



FROM:                                     Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Consolidated Facilities Management Approach
                                          (Report No. 06-010)


This report presents the results of our audit of the FDIC’s consolidation of facilities management
services. The consolidated services approach to facilities management represents a shift from
FDIC management of multiple contractors to management of one contractor for building
management, repair, and maintenance services. The overall objective of the audit was to
determine whether the contract structure1 and FDIC management of the contract were adequate
to ensure the economical and efficient management of the Corporation’s Washington, D.C., area
facilities. Appendix I discusses our objective, scope, and methodology in more detail.

BACKGROUND

As part of the FDIC’s strategic goals to substantially reduce corporate operating costs and
develop efficient and cost-effective processes, the Division of Administration (DOA)
implemented the Consolidated Facilities Management (CFM) approach. CFM was designed to
cut administrative costs and simplify the management of numerous building services in
anticipation of staff decreases and increases in the number and complexity of service contracts
for DOA’s Corporate Services Branch (CSB) - Facilities Operation Section (FOS). The CFM
approach combined 13 facilities-related contract services into 1 contract and includes the
following services:

                •    building operations and maintenance and recurring repairs;
                •    electrical installations and maintenance;
                •    elevator maintenance and repair (2 contracts);
                •    environmental management system operation and maintenance (2 contracts);
                •    janitorial services;
                •    interior construction for space alterations;

1
    The contract structure is the implementation of the Consolidated Facilities Management approach.
               •   painting;
               •   pest control;
               •   landscaping;
               •   interior plant maintenance; and
               •   supplemental air conditioning systems in leased buildings.

Effective April 1, 2003, the FDIC awarded its first CFM contract to Consolidated Engineering
Services, Inc (CESI). The contract has a 2-year base period with three 1-year options and
originally had a total contract ceiling of $30.4 million. As of May 1, 2004, the contract ceiling
increased to $32.5 million.2 The total authorized budget for the 5-year contract period was
$39.3 million.

As part of the CFM approach, the FDIC had the option to consolidate existing contracts into
fewer contracts to streamline and reduce procurement and contract administration costs.
Consolidated contracts, depending on size, are open to competition from small businesses.
However, the FDIC implemented a more complex approach, a subset of contract consolidation
referred to as contract bundling. Contract bundling is defined as the consolidation of two or
more procurement requirements for goods or services previously provided or performed under
separate, smaller contracts into a solicitation of offers for a single contract that is likely to be
unsuitable for award to a small business concern due to:

        •    the diversity, size, or specialized nature of the elements of the performance specified;
        •    the aggregate dollar value of the anticipated award;
        •    the geographic dispersion of contract performance sites; or
        •    any combination of these three criteria.

The FDIC selected the contract bundling approach due to the multitude of services required,
aggregate dollar value, and complexity of the requirements as delineated in the contract’s
Statement of Work. Contract bundling is subject to certain laws and regulations that protect
small businesses.

As a result of the potential adverse effect of bundled contracts on small businesses, the Congress
and small business advocates expressed concern about the extent of contract requirements for
bundling and the effect that such bundling has on the ability of small businesses and small,
disadvantaged businesses to participate in federal procurements. In light of these concerns, in
1997, Congress enacted amendments to the Small Business Act related to contract bundling. The
Small Business Reauthorization Act of 1997 (SBRA3) requires federal agencies (including the
FDIC) to:

    •       comply with congressional intent to foster the participation of small business concerns as
            prime contractors, subcontractors, and suppliers;


2
  Modification 1, dated June 1, 2003, increased the contract ceiling to $31 million. Modification 4, dated May 1,
2004, increased the contract ceiling to $32.5 million.
3
  We use SBRA to refer the Small Business Act, as amended by the SBRA or other laws.


                                                         2
    •   structure contracting requirements to facilitate competition by and among small business
        concerns, taking all reasonable steps to eliminate obstacles to their participation; and
    •   avoid unnecessary and unjustified bundling of contract requirements that precludes small
        business participation in procurements as prime contractors.

Furthermore, the SBRA requires the Small Business Administration (SBA) to review all
proposed consolidated acquisitions for goods or services that small businesses were currently
providing but that may be unsuitable for award to a small business. According to the SBRA, if
SBA decides the proposed procurement will render small business contract participation
unlikely, SBA can recommend alternate procurement methods to the procurement activity to
increase small business participation.

The FDIC has concluded that the contract bundling provisions of the SBRA apply to the FDIC.
Therefore, the FDIC may not proceed with an acquisition strategy that would lead to contract
bundling without first conducting market research to determine that the bundling is necessary
and justified. Further, when the FDIC’s acquisition strategy includes substantial contract
bundling,4 the FDIC must identify the anticipated benefits, provide an assessment of the
impediments to small businesses, specify actions to be taken to maximize small business
participation as a subcontractor, and make a specific determination that the anticipated benefits
of the proposed bundled contract justify its use. Recently, the FDIC also concluded that SBA
regulations governing contract bundling are also applicable to the FDIC.


RESULTS OF AUDIT

The CFM contract structure and FDIC’s management of the contract were generally adequate to
ensure the efficient operation of the Corporation’s Washington, D.C., area facilities. An
independent engineering firm determined that the facilities were well-maintained, and a customer
satisfaction survey indicated that most FDIC employees were satisfied with the overall physical
environment in FDIC building space. However, we could not determine whether the CFM
contract resulted in more economical facilities management services due to weaknesses in certain
procurement-related internal controls. Specifically:

    •   The internal control structure5 for making contract bundling determinations needs
        improvement. The market research performed to support bundling decisions had
        significant limitations, and minimal consideration was given to small business
        participation. As a result, the FDIC could not clearly demonstrate that contract bundling
        was necessary and justified before award of the CFM contract and that small business
        participation was maximized (Finding A).

    •   The FDIC did not have controls in place to monitor or periodically assess whether the
        intended benefits of the CFM contract were being achieved and small business

4
  Substantial contract bundling is not defined by statute but is defined by regulation as discussed further in
Finding A.
5
  Internal control structure refers to the application of the five internal control standards in the Government
Accountability Office’s (GAO) Standards for Internal Control in the Federal Government, dated November 1999.


                                                       3
    participation was being safeguarded. As a result, it is unclear whether the CFM contract
    is achieving intended benefits, including small business participation levels (Finding B).

•   The FDIC completed a major capital improvement project on one of its facilities, using
    the CFM contract. However, a portion of the related costs were expensed rather than
    capitalized. As a result, FDIC accounting records overstated facilities maintenance costs
    by $1,220,023 and understated assets by the corresponding amount. We plan to report
    this amount as funds put to better use in the next Office of Inspector General (OIG)
    Semiannual Report to the Congress. Further, the capital improvement was awarded to
    the CFM contractor without a written justification for noncompetitive procurement or
    documented market research. The CFM contractor competed subcontracts for the
    required work which at least partially mitigated the pricing risk. However, absent the
    justification or market research, there is limited assurance that a noncompetitive
    procurement is required or that overall pricing is fair and reasonable (Finding C).

•   The janitorial services incentive provisions of the CFM contract do not require
    performance that exceeds the standards in the contract Statement of Work. As a result,
    the FDIC paid janitorial incentives totaling $193,131 through December 31, 2005 and
    may pay additional incentives of $318,748 for the remaining contract period without
    obtaining any benefit beyond what is already required in the contract. If the contract
    provisions are modified as part of an upcoming option exercise, there may be
    opportunities to reduce costs and improve performance. We plan to report the $193,131
    as questioned costs and the $318,748 as funds put to better use in the next OIG
    Semiannual Report to the Congress (Finding D).




                                             4
FINDINGS AND RECOMMENDATIONS

FINDING A: NECESSITY AND JUSTIFICATION OF CFM APPROACH

The FDIC internal control structure for making contract bundling determinations needs
improvement. Concerning the CFM contract, the FDIC’s market research6 considered the costs
for facilities maintenance under 13 separate contracts compared to estimated costs for a bundled
contract. However, the research had significant limitations.

     •   The quantification of measurably substantial benefits that would be derived was
         incomplete, inaccurate, and lacked support for several key estimates.

     •   Consideration of the contract bundling effects on small business participation in facilities
         maintenance was minimal.

     •   The FDIC’s market research was not submitted for SBA review before contract award.

The FDIC Acquisition Policy Manual (APM) does not contain guidance on the performance of
market research in support of determinations on contract bundling that includes controls related
to the identification and quantification of benefits, an assessment of ways to maximize small
business participation, and review by SBA. As a result, the FDIC did not clearly demonstrate
through its market research and analysis that bundling was necessary and justified for the
consolidation of facilities maintenance contracts and that the impact on small businesses had
been addressed to the extent practicable. The market research and analysis was essential for
ensuring compliance with applicable statutory and regulatory requirements and justifying the
expenditure of contract funds to the FDIC Board of Directors.7

Bundling Requirements and Guidance

The SBRA requires that market research be performed before proceeding with an acquisition
strategy that could lead to a contract containing bundled procurement requirements. According
to the SBRA, the purpose of market research is to determine whether bundling of the
requirements is necessary and justified by measurably substantial benefits. Measurably
substantial benefits include a combination of the following:

    •    cost savings,
    •    quality improvements,
    •    reduction in acquisition cycle time,
    •    better terms and conditions, and
    •    any other benefits.


6
  Market research is a systematic, objective collection and analysis of general data to obtain information and
knowledge about the availability and types of goods or services in the commercial marketplace.
7
  The approval process for expenditure authority in effect at the time the CFM contract was awarded (details are
provided on the next page) was significantly modified by FDIC Board resolutions in December 2004 and May 2005.
Specifically, the Board delegated resource allocation decisions to senior FDIC management.


                                                       5
The SBRA also specifies requirements for acquisition strategies that involve substantial contract
bundling. These requirements include identification of the benefits from bundling, assessment of
impediments to small business concerns, and actions to maximize small business participation.
The SBRA further states that a reduction of administrative or personnel costs alone shall not be a
justification for bundling contract requirements unless the cost savings are expected to be
substantial in relation to the estimated dollar value of the requirements to be consolidated.

As previously stated, the APM does not contain guidance related to contract bundling. The SBA
regulations and Federal Acquisition Regulation (FAR)8 contain a number of requirements
specifically related to contract bundling that are illustrative of the controls that can be established
to implement the SBRA. For example, the SBA regulations:

    •   define measurably substantial benefits as an amount, in general, equal to 10 percent of the
        estimated contract value if the value is $75 million or less;
    •   establish additional small-business-related requirements for situations involving
        substantial contract bundling (whose average annual value is $10 million or more); and
    •   require acquisition strategies that include contract bundling to maximize small business
        participation.

Because the FDIC has recently decided that SBA regulations related to contract bundling are
applicable to the FDIC, contract bundling guidance should be included in the FDIC’s APM.
These regulations also address reporting to the SBA in relation to contract bundling.

The FDIC had established controls for requesting contract expenditure authority approval from
its Board of Directors for planned contracts that exceed authority delegated to Division Directors
and Deputies to the Chairman. Approval by the FDIC Board of Directors authorized contract
award and set the funding level for each contract. These procedures were followed in the case of
the CFM contract. Since award of the CFM contract, the FDIC Board of Directors has
substantially modified the authority delegations.9

Quantification of Measurably Substantial Benefits

FOS conducted market research to determine whether contract bundling to meet facilities
maintenance requirements was necessary and justified by measurably substantial benefits. FOS
documented its research results in its Rationale Supporting CFM (Rationale), dated October
2002. Additionally, FOS indicated a total savings of $713,269 to be realized over the first 3
years of a CFM contract (see Table 1 on the next page). Moreover, FOS stated that the reduction
represented a 9.7 percent decrease in comparison to 2002 contract costs.




8
  The FAR is not generally applicable to the FDIC but is used to implement the SBRA at other federal agencies,
including the Department of Defense, National Aeronautics and Space Administration, and the General Services
Administration.
9
  See footnote 7.


                                                        6
         Table 1: DOA-estimated Cost Savings Rationale
            Estimated                 Estimated Costs Under CFM                          Estimated
           Costs for 13     Base Year 1      Base Year 2    Option Year 1                  Cost
            Contracts       4/1/03 – 3/31/04     4/1/04 – 3/31/05    4/1/05 – 3/31/06     Savings
            $7,333,628       $6,879,541                                                    $454,087

            $7,333,628                         $7,194,231                                  139,397*

           $7,333,628                                                     $7,213,844        119,784
          Estimated
          Total Savings                                                                    $713,268
          Source: OIG Analysis.
          * There is a mathematical error in the Rationale. The correct amount is $139,397, but the document shows
            $139,398. As a result, the total estimated savings is $713,268 rather than $713,269 as per DOA’s
            calculation.


FOS attributed the estimated cost savings to reductions in the number of:

     •    Key personnel required under the CFM contract as compared to the number of key
          personnel required under the 13 separate contracts.

     •    Interior space alterations as a result of extensive space consolidation due to corporate
          reorganizations.

     •    Electrical repairs due to the completion of a large number of electrical repair projects in
          2001 and 2002.

The quantification of the benefits in the FOS Rationale was incomplete, inaccurate, and lacked
support for several key estimates. We attribute these conditions to the lack of APM guidance on
performing market research and analysis in support of contract bundling decisions.

Completeness of the Rationale. The FOS Rationale was incomplete because the analysis did not
quantify the dollar impact of the reduction in key personnel under the CFM contract and the
differences in procurement and contract oversight resources for the 13 individual facilities
management contracts compared to a bundled CFM contract. This quantification should have
been a part of the determination with regard to the benefits of contract bundling.

The Rationale attributes savings, in part, to a reduction in the number of key personnel required
but did not quantify this reduction. Rather, estimated costs under the CFM contract are based on
estimated costs for the 13 individual contracts. For example, the Rationale shows that the first
option year budget of $7,213, 84410 under the CFM contract is the amount of expected costs on
the 13 contracts proposed for consolidation. There is no reduction in estimated costs due to a
reduction in key personnel as a result of the CFM contract for this option year.
10
  There is a mathematical error in the Rationale. The amounts total $7,189,974, but the document shows a total of
$7,213,844, which we used in our analysis.


                                                         7
The Rationale mentioned that significant staff resources were required to develop procurement
packages associated with the 13 contracts. However, resulting savings, if any, from contract
bundling were not estimated and quantified in dollar terms based on the implied reduction in
staff resources required for a bundled contract compared to the individual contracts. Also, the
Rationale showed an estimated savings in staff resources of 4,200 hours per year based on the
total hours estimated to have been used to provide contract oversight for 7 of the 13 contracts.
These seven contracts were determined to be complex because the dollar value exceeded
$100,000. The estimated cost savings were not quantified, and there were no estimates for
oversight of either the remaining six contracts or the bundled CFM contract. The estimate for
oversight of the bundled contract would have at least partially offset the savings resulting from
contract bundling.

Accuracy of the Rationale. The FOS Rationale was inaccurate because FOS overstated the
percentage of expected savings from the CFM contract. The 3-year estimated savings under the
CFM approach of $713,268, as shown in Table 1, should have been compared to the total
estimated expenses of about $22 million ($7,333,628 x 3) for the 3-year period had the contracts
not been bundled. Such a comparison would have resulted in about a 3.2 percent estimated
savings over the 3-year period rather than the 9.7 percent savings shown in the Rationale.

Support for Key Estimates. The FOS Rationale did not contain support for key estimates. First,
the estimated cost per year of $7,333,628 for the 13 individual contracts in base years 1 and 2
and the first option year was derived using an estimate of 2002 costs for the 13 contracts. The
costs in calendar year 2002 were well over $1 million more than each of the preceding years
(calendar years 2000 and 2001)11 due to extensive interior space alterations and electrical repairs
that were not expected to be recurring expenses. The Rationale states that CFM cost savings can
be attributable to these reductions in interior space alterations and electrical repairs, but such
savings are not quantified and would have been realized regardless of which contracting method
was used. For comparison, we calculated that the 2-year average costs for the 13 contracts for
calendar years 2001 and 2002 totaled $6,607,488. This estimate is also impacted by $1 million
for nonrecurring interior space alterations and electrical repairs. However, the estimate
illustrates the impact of the nonrecurring repairs on the individual contract estimate and,
potentially, the resulting savings calculations. The Rationale provides no support for using the
$7,333,628 cost without adjustment for nonrecurring costs.

Second, the cost estimates for the 2 base years and 1 option year under the CFM approach are
those shown in Table 1, but the underlying support for these estimates is not provided in the
Rationale. For example, support such as an analysis of historical costs, forecast of future work
requirements, and cost comparison to existing facilities maintenance contracts was not included
in the Rationale. Further, no apparent adjustment was made to the costs for the impact of
inflation. Additional support for the estimates in the Rationale would have helped ensure that
bundling was necessary and justified for the consolidation of facilities maintenance contracts.
We discuss the comparison of estimated to actual savings achieved on the CFM contract in detail
in Finding B.


11
  Actual interior space alteration expenses decreased from over $1.3 million in 2002 to under $300,000 during base
year 2 of the CFM contract.


                                                        8
The combined effect of the various weaknesses in the FOS Rationale is that the FDIC did not
clearly demonstrate through its market research and analysis that bundling of facilities
maintenance contracts was necessary and justified based on measurably substantial benefits from
a cost perspective. Similarly, although the Rationale identifies the potential for improving the
overall quality of facilities maintenance services by having a single contractor, the Rationale
contains little support for this conclusion. For example, the Rationale lists other governmental
and private-sector organizations that have implemented a consolidated approach to facilities
maintenance as an indication of an industry trend in this direction, but there is no discussion of
costs, risks, benefits or best practices that could assist in the FDIC’s analysis of alternatives.12
Accurate and complete market research and analysis is also essential for ensuring compliance
with applicable statutory and regulatory requirements related to protecting small business
interests and for justifying the expenditure of funds to the FDIC Board of Directors.

Board of Directors Approval. The 2003 Contract Expenditure Authority Request was approved
by the FDIC Board of Directors on February 11, 2003 and included a request for authority to
proceed with the CFM contract. The justification for the CFM contract states that it will improve
contractor performance and efficiency, but further information was not included in the request.
We found no support for this conclusion beyond the market research that was performed in
support of contract bundling. To the extent that market research and analysis do not clearly
demonstrate the benefits associated with a bundled contract and, in turn, are used to make
resource allocation decisions, such decisions may lack required support. These decisions are
now delegated by the FDIC Board of Directors to senior FDIC management. However, the
importance of the underlying support for proceeding with a procurement and, in particular, a
bundled contract, remains the same.

Impact of Contract Bundling on Small Business Participation in Facilities Maintenance

The FOS Rationale does not address the impact of contract bundling on small business
participation in FDIC facilities maintenance activities. Additionally, we found limited evidence
of the FDIC’s efforts to maximize small business participation in facilities maintenance as part of
its market research on bundling the existing contracts for these services. For example, we did
not find evidence of:

         •   An assessment of impediments to small business participation or specified actions to
             maximize small business participation as subcontractors. Such actions could include
             alternative acquisition strategies that reduce or minimize the scope of contract
             bundling.

         •   A determination of current or projected small business participation in facilities
             maintenance contracts based on dollar value.

         •   An analysis of contractual terms and conditions that would facilitate small business
             participation. In this regard, the CFM contract includes an approved subcontractor

12
  In June 2002, FDIC representatives visited one government facility that was deemed comparable to FDIC-owned
buildings. However, the results of the visit are not included in the FOS Rationale, and other evidence indicates that
the visit was limited in scope and duration.


                                                          9
           list and requires that any changes in subcontracting arrangements must result in the
           same or greater small business participation.

       •   Benchmarking as part of market research to determine how other federal entities
           encourage small business participation in bundled contracts.

The objective of these activities is to ensure that the potential impact of contract bundling on
small business is considered in the determination that anticipated benefits justify the use of a
bundled contract and that these benefits are substantial. Also, to the extent practicable, this
impact should be minimized.

Reporting to the SBA

The SBRA requires that agencies give the SBA’s Procurement Center Representative (PCR) an
opportunity to review bundled contract requirements before contract award. The review is
needed to ensure that a government agency has identified specific benefits anticipated to be
derived from the bundling. If it is determined that the bundling is averse to small business, the
SBRA allows the PCR to ask the government agency to provide alternative strategies that would
increase small business participation opportunities.

The FDIC did not comply with the SBA reporting requirements. However, according to an SBA
representative, the FDIC did not have a currently assigned PCR which could have had an impact
on whether a review was performed. Nevertheless, the FDIC was required to notify SBA of the
proposed bundling and to mitigate effects on small businesses to the maximum extent
practicable.

Conclusion

The FDIC APM can be used to provide an appropriate internal control structure related to
contract bundling. Such an approach is consistent with how other federal agencies have
implemented statutory and regulatory requirements related to contract bundling. The additional
controls will help ensure that market research clearly demonstrates the benefits from contract
bundling, supports decisions regarding small business participation and resource allocation, and
provides a record of FDIC action to comply with statutory and regulatory requirements. In
February 2006, the FDIC concluded that the regulations issued by SBA to implement the
contract bundling provisions of the SBRA are applicable to the FDIC. This includes the market
research requirement, the “measurably substantial benefits” test, and the percent-of-contract
provisions that define substantial bundling. This recent development should be considered in
developing the recommended amendments to the APM.

Recommendation

(1) We recommend that the Director, DOA, amend the APM to provide guidance on contract
bundling in accordance with statutory and regulatory requirements, including:

   •   Performing market research in support of contract bundling decisions.


                                                 10
     •   Maximizing participation of small business concerns in bundled contracts to include
         identifying impediments to, and alternative strategies for, small business participation.
     •   Assessing whether proposed contract bundling will result in measurably substantial
         benefits to the FDIC and is necessary and justified.
     •   Providing SBA the opportunity to review proposed contract bundling.


FINDING B: BENEFITS OF THE CFM CONTRACT

The FDIC did not have controls in place to monitor or periodically assess whether the intended
benefits of the CFM contract were being achieved and small business participation was being
safeguarded. Specifically:

     •   The FDIC concluded that contract cost savings would be achieved and that there would
         be an increase in efficiency of internal operations and quality of facility services through
         the CFM contract. This determination is similar to an SBRA requirement to ensure that
         the anticipated benefits of contract bundling justify its use. However, the achievement of
         those cost savings, particularly those resulting from internal efficiencies such as
         reductions in staff resources due to eliminating numerous separate facilities maintenance
         contracts, and other intended benefits were not periodically assessed.

     •   The CFM contract requires that any changes in subcontracting arrangements must result
         in the same or greater extent of small business participation. The FDIC had not
         periodically assessed small business participation in the CFM contract to determine
         compliance with this requirement or statutory and regulatory requirements related to
         maximizing small business participation in bundled contracts. This is particularly
         important in anticipation of the exercise of the upcoming contract option that will include
         the Virginia Square Phase II facilities.13

The APM does not require a periodic assessment of whether intended benefits and small business
participation are, in fact, being achieved on bundled contracts. Such a determination is useful in
(1) monitoring contractor performance, (2) making decisions on whether to exercise contract
options or to reprocure existing bundled contracts, and (3) assessing future contract bundling
approaches.

In the absence of specific FDIC information on the achievement of cost savings or other intended
benefits on the CFM contract, we performed an analysis, which concluded that actual costs for
the 2 base years of the CFM contract closely matched the FDIC’s estimated costs. We did not
assess the quality of contractor performance but noted that external assessments indicated that
the quality of the services was acceptable.

Our contract cost analysis alone does not demonstrate that measurably substantial benefits would
be achieved, in part, because it excludes the impact of internal cost reductions and other factors
13
  The CFM contract has 3 option periods with Option 2 extending from April 1, 2006 through March 31, 2007.
Option 2 will include the newly constructed facilities at the FDIC's Virginia Square location. The additional cost of
serving the new facilities is under negotiation with CESI, Inc., the CFM contractor.


                                                         11
such as quality of service. Also, such an assessment should extend over the life of the CFM
contract, whereas our analysis covered only the first 2 years of CFM contract performance.
Finally, without periodic assessments of small business participation, there is limited assurance
that participation levels will at least remain the same on the CFM contract or that greater
participation is encouraged.

Background

The concept of monitoring compliance with established requirements is fundamental to a sound
internal control structure. GAO has issued Standards for Internal Control in the Federal
Government. One of the five standards addresses monitoring. Internal control generally should
be designed to assure that ongoing monitoring occurs in the course of normal operations.
Monitoring should assess the quality of performance over time. With regard to contract
bundling, monitoring activities can include achievement of intended benefits as well as small
business participation.

Achievement of Intended Benefits

The FOS did not compare intended benefits to actual benefits of the CFM contract. We found no
evidence of a determination that an increase in efficiency of internal operations or quality of
facility services through the CFM had been achieved. We also found no comparison of costs
before and after CFM implementation, including contract costs. Therefore, we compared actual
facilities management costs under the CFM contract to originally estimated costs to justify the
contract bundling strategy on this procurement. Our review showed that for the first 2 years of
the CFM contract (April 1, 2003 through March 31, 2005), actual contract costs were slightly
higher than estimated costs. The difference of $171,604, as shown in Table 2, was about
1.2 percent greater than the original estimate.


     Table 2: Comparison of Actual and Estimated CFM Contract Costs
                                                             FDIC-estimated          Actual Costs in
           Time Period            Actual CFM Costs
                                                                 Costs              Excess of Estimate
       Consolidated Contract
        Base Years 1 and 2            $16,308,837              $14,073,772              $2,235,065
       4/l/03 through 3/31/05
       Less: F Street Capital          (2,063,461)                                      (2,063,461)
       Improvement Project*
          Adjusted Costs              $14,245,376              $14,073,772               $171,604

     Source: OIG Analysis.
     * The CFM was used for a capital improvement project for which the CFM was not intended. Therefore, we
     reduced the adjusted costs amount by the $2.1 million spent on the project in the first 2 years of the CFM.
     The capital improvement project is explained in detail in Finding C.

Actual contract costs compare favorably with estimates in that there is a variance of only about
1.2 percent. However, as discussed in Finding A, in determining the benefits of the CFM
contract, the estimated costs for the 13 separate facilities maintenance contracts need to be


                                                      12
considered. We consider prior FDIC estimates of these costs to be excessive due to the inclusion
of certain nonrecurring costs. If contract costs for the 13 contracts for the 2 years prior to the
CFM contract are used as a comparison, actual contract costs have increased by over $1 million
($13,214,976 for the 13 contracts compared to $14,245,376 for the CFM contract). This
difference does not reflect either the impact of inflation or reductions in staff resources
associated with the award and oversight of a single bundled contract rather than the multiple
contracts. These cost factors should be included in the assessment as well as other benefits
intended to be derived.14 Therefore, the FDIC should perform an assessment prior to the
exercise of the next annual CFM contract option to determine if measurably substantial benefits
are being achieved. Additionally, periodic assessments should be performed over the life of the
CFM contract.

The assessments discussed above can take the form of market research. The FDIC Interim
Acquisition Policy #2003-1, Market Research, dated April 30, 2003, emphasizes the importance
of market research prior to exercising a contract option to confirm that existing pricing for the
contract option represents current competitive pricing. The policy highlights the importance of
determining if the FDIC is receiving the most favored price from the contractor and to validate
that the contract option price is competitive. The policy states that this market research must be
completed 60 days prior to exercising the option and can result in negotiations to reduce the
option price or establish a bridge contract modification to allow for a new competitive
solicitation.

FOS Study of Facilities Costs. The need for an assessment of the benefits resulting from the
CFM contract approach is also evidenced in a more recent study by FOS. FOS performed a
study in 2004 of FDIC facilities operating costs compared to industry standards. The study
showed that after implementation of the CFM contract, the FDIC’s costs rose in 2003 and 2004
in comparison to costs prior to the CFM approach. The comparison to industry standards was
inconclusive because it did not include costs for facilities that were directly comparable to those
of the FDIC. Table 3 on the next page shows the range of FDIC costs for the three buildings it
owns.




14
  FOS stated it reduced contract administration personnel from 8 oversight managers responsible for the 13
facilities-related contracts to 1 oversight manager and 5 technical monitors responsible for the CFM contract.
However, the cost savings associated with this reduction were not quantified. Similarly, FOS concluded that there
were savings, including in acquisition cycle time, associated with awarding 1 contract rather than 13 contracts but
did not quantify the dollar amount.



                                                         13
              Table 3. FDIC Study of Facilities Operating Costs
                                                    Range of FDIC Costs for the
                    Contract Type and Year               Three Facilities
                                                        (Per Square Foot)
                Unbundled Contracts
                             2002                           $4.59 - $8.83
                CFM Contract
                             2003                           $6.52 - $9.56
                             2004                          $8.02 - $10.54
              Source: OIG Analysis.

According to the FOS study, the FDIC facilities costs increased from 19 to 74 percent in the
2 years after the CFM contract was awarded. The increase in costs per square foot shown in the
FOS analysis is not consistent with the expectation that the CFM contract would result in
increased efficiency in facilities management and a reduction in contract costs. An assessment
by FOS would provide valuable insight into the actual benefits of the CFM contract.

Maintenance of Buildings. Under the CFM contract and the prior 13 separate contracts, the
FDIC has been successful in maintaining its Washington, D.C., area buildings in good working
order. DOA’s 2005 independent building condition surveys for the 1776 F Street and the
550 17th Street buildings confirm that the buildings have been maintained well. For example, the
independent engineering firm Facility Engineering Associates, P.C. (FEA), hired to provide
assessments of the condition of FDIC-owned buildings, observed that overall maintenance
practices were good. FEA’s October 2005 Facility Condition Assessment Reports for the
550 17th Street and 1776 F Street buildings stated that the properties were well-maintained, with
machinery and equipment in good condition with an expectation that most maintained elements
would exceed industry-standard expected useful life. Additionally, the reports stated that in
some cases, equipment has exceeded expected useful life due to maintenance practices in place.
To continue a high level of facility maintenance performance, FOS plans to use the building
condition survey recommendations as the basis for future scheduled maintenance projects.

Another indicator that the buildings are well-maintained is the 2004 Second Annual Inter-
Divisional Customer Satisfaction Survey. The results of the survey showed that over 80 percent
of the FDIC’s employees were satisfied with the overall physical environment of the
Corporation’s Washington, D.C., area buildings. The survey addressed cleanliness of the lobby,
common areas, conferences rooms, and offices.

Small Business Participation

The CFM contract requires that the contractor notify the FDIC of changes in subcontracting
arrangements with small businesses and that any changes must result in the same or greater
extent of small business participation. Prior to award of the CFM contract, 6 of the 13
contractors performing facilities maintenance were small businesses. Of the eight subcontractors
participating in the CFM contract, two are small businesses. However, the dollar value of work
performed by the two subcontractors and by lower subcontracting tiers for all eight
subcontractors was not monitored or periodically assessed by FOS for the purpose of


                                               14
determining if further action is required regarding small business participation. The SBRA
contains provisions related to addressing impediments to small business participation and
requires, for a substantially bundled contract, specific action to maximize such participation by
subcontractors at various tiers. The periodic assessment of small business participation in a
bundled contract is an important control for ensuring that the intent of the SBRA is achieved and
that there is compliance with related contract requirements.

Also, the FDIC recently concluded that SBA regulations issued to implement the contract
bundling provisions of the SBRA are applicable to the FDIC. The SBA guidance should be
considered in determining the nature and extent of the recommended APM guidance for
assessing the achievement of intended benefits and small business participation on bundled
contracts.

Recommendations

We recommend that the Director, DOA:

(2) Amend the APM to require monitoring and periodic assessments of whether intended
benefits and small business participation are being achieved in bundled contracts for use in
procurement decisions.

(3) Prior to the next contract option period, perform an assessment to determine if the CFM
contract is achieving intended benefits, including small business participation.


FINDING C: CFM CAPITAL IMPROVEMENT PROJECT

The FDIC completed a major capital improvement project, column collar installation, on one of
its facilities using the CFM contract. However, as part of the CFM contract, a portion of the
related costs were expensed rather than capitalized. As a result, the FDIC overstated facilities
maintenance costs by $1,220,023 and understated assets by the corresponding amount in its
accounting records. We plan to report the $1,220,023 as funds put to better use in the OIG’s
next Semiannual Report to the Congress.

Further, the capital improvement was awarded to the CFM contractor without a written
justification for a noncompetitive procurement or documented market research. The CFM
contractor competed subcontracts for the required work which at least partially mitigated the
pricing risk associated with a noncompetitive procurement. However, a justification for
noncompetitive procurement supported by documented market research is an important control
for ensuring that fair and reasonable prices are obtained on large-dollar-value procurement
actions such as the column collar installation. Absent the justification, there is limited assurance
that a noncompetitive procurement is required or that overall pricing is fair and reasonable.




                                                 15
Capitalization of Project Costs

On July 30, 2004, DOA signed Work Order No. F-C01 authorizing $2.3 million15 for the capital
improvement project, Column Collar Installation for 1776 F Street. The project was a firm
fixed-price work order for column collar installation and all associated work in removing and
reinstalling utilities and interior finishes, including drywall covering columns, paint, crown
molding, and ceiling tiles, at the FDIC-owned building at 1776 F Street, N.W., Washington, D.C.
Although the work order was signed in July 2004, the stated period of performance was from
June 16, 2004 through April 5, 2005. The FDIC reported that the F Street column work was one
of five capital improvements performed at Headquarters during 2001 through 2005.

At the start of the F Street column collar installation project, the Division of Finance (DOF), at
the request of DOA, established a project in the FDIC accounting system to account for and
capitalize the costs associated with the column project. As costs were incurred on the project, a
work-in-progress account was used to accumulate and track costs until the project was
completed. DOA was responsible for ensuring that all invoices related to this project were coded
correctly so that costs associated with the project were accurately classified in the FDIC’s
accounting system. DOA was also responsible for informing DOF when the project was
completed and all invoices had been paid. As of February 2006, DOF had capitalized only
$843,438 of the $2,063,461 incurred on the F Street column collar installation project.

Costs totaling $1,220,023 for the column collar installation under the CFM contract were
accounted for as facilities maintenance expenses rather than being capitalized and added to the
basis of the 1776 F Street Building. This accounting treatment is not supported by FDIC
Statement of Accounting Policy (SAP) Number 25, Accounting for Property, Plant and
Equipment, effective February 12, 2003. The SAP states that expenditures related to capital
assets that are expected to produce benefits beyond the current year16 are to be capitalized and
that expenditures that simply maintain a given level of benefits are expensed in the period they
are incurred. The SAP specifically defines improvements and replacements that should be
capitalized, stating that improvement substitutes a better asset, while replacement substitutes a
similar asset. To be capitalized, the improvement must increase the future service potential of
the asset.

The column weaknesses were identified in an April 2002 contractor-prepared building
assessment report entitled, Floor Slab Strength Evaluation Report-FDIC Support Building 1776
F Street. The report also referred to an earlier Facility Assessment Report of January 2002,
which states that the floor-slab-column joints do not meet requirements in the District of
Columbia Code or Building Officials and Code Administrators International Incorporated. In
March 2004, based, in part, on a contractor report entitled, Column Reinforcement Project, the
FDIC concluded that installation of reinforcing collars on certain columns would increase floor-
loading capacity up to current code standards and strengthen physical security characteristics of

15
  We determined that $2,063,461 was paid to the CFM contractor to complete the work.
16
  Expenditures related to capital assets can increase future benefits by (1) extending the useful life of the asset
or (2) increasing the operating efficiency of the asset. An increase in operating efficiency results in either an
increase in the quantity of goods or services produced, a decrease in future operating costs, or an increase in the
quality of the goods or services produced by the asset.


                                                          16
the 1776 F Street Building. The study’s conclusion supports capitalization of associated costs
because the service potential of the building was increased in accordance with established
accounting policy, as was the account established to capitalize the costs and the partial
capitalization that occurred.

Justification for Noncompetitive Procurement

The FDIC did not prepare a justification for noncompetitive procurement for the column collar
installation project. The APM requires the justification supported by documented market
research before an award for a noncompetitive contract. Justification for the noncompetitive
award of large-dollar-value work orders is not specifically addressed in the APM. DOA
management concluded that the project was not anticipated and that completion under the CFM
contract was necessary due to the gravity of the situation and the need to complete the work
within a short period. The APM provides for justifying noncompetitive procurements based on
urgency, but it also requires market research to identify possible sources for the goods or services
required before the justification is submitted for approval by the contracting officer. FDIC
Interim Acquisition Policy #2003-1, Market Research, dated April 30, 2003, emphasizes the
importance of market research in obtaining approvals for capital investment projects by
supporting the development of a cost-benefit analysis. Such research, if performed, was not
documented in the contract file, and no written justification was prepared. The CFM contractor
adequately competed the subcontracts to perform the work which reduced the pricing risk
associated with noncompetitive procurements. However, without competition at the prime-
contract level, the FDIC has limited assurance that the overall price is fair and reasonable, unless
other controls such as market research and cost or price analysis17 are used.

The CFM contract provided that subcontract costs were eligible for up to a 10-percent markup
and that the contractor was eligible for up to an additional $25,000 incentive fee in the column
collar installation project. The contract generally set cost limitations for work orders, such as for
interior construction and maintenance repairs of $250,000 and $75,000, respectively. These
terms and limitations indicate that the contract was not designed for large-dollar-value capital
improvements such as the column collar installation project. Documented market research may
have aided the FDIC in the determination whether: (1) a noncompetitive procurement was
justified and (2) the CFM contract terms were appropriate for a work order with an estimated
overall price in excess of $2 million.

Recommendations

(4) We recommend that the Director, DOF, identify and capitalize all the costs for the column
collar installation project.

(5) We recommend that the Director, DOA, amend the APM to establish requirements
associated with documented market research and justification of noncompetitive procurements
for large-dollar-value work orders on existing contracts.


17
  The FDIC’s APM discusses the use of cost and price analysis as part of the procurement process to assist the
contracting officer in evaluating contractor proposals.


                                                        17
FINDING D: CFM JANITORIAL SERVICES INCENTIVE PROVISIONS

The janitorial services incentive provisions of the CFM contract do not require performance that
exceeds the standards in the contract Statement of Work. The APM does not provide sufficient
guidance on structuring incentive clauses to encourage performance that exceeds target
expectations. As a result, the FDIC paid janitorial incentives totaling $193,131 through
December 31, 2005 and may pay additional incentives of $318,748 for the remaining contract
period without obtaining any benefit beyond what is already required in the contract. If the
contract provisions are modified as part of an upcoming contract option exercise, there may be
opportunities to reduce costs and improve performance. We plan to report the $193,131 as
questioned costs and the $318,748 as funds put to better use in the OIG’s next Semiannual
Report to the Congress.

Incentive Provision Structure

According to the Statement of Work, Exhibit G, FDIC Janitorial Services Incentive Program,
the objective of the incentive program is to apply evaluation criteria that are easily measurable
and objective. The CFM contract further states that each month, based on certain specified
janitorial services performed, the contractor may earn an incentive in the form of a bonus
management fee payment. The incentive payment is 10 percent or less of the monthly fixed fee
amount for those janitorial services computed for each of the three FDIC buildings maintained
by the CFM contractor. The contractor may also be subject to a penalty applied to the janitorial
services portion of its monthly fixed fee for each building up to 10 percent of the fixed fee if
performance standards are not met. Both the incentive payments and the penalties are based on
FDIC inspections of work and qualitative factors related to the contractor’s cooperation,
responsiveness, and support as well as any complaints or commendations. The inspections are
based on janitorial performance standards in the contract, which requires 100-percent
compliance.

The incentive fee structure does not establish specific targets related to the janitorial performance
standards. Instead, it allows the contractor to earn an incentive even when the janitorial
standards are not met. For example, the contractor can earn the maximum 10-percent incentive
fee even though the contractor has not met the janitorial standards by performing well on the
qualitative factors.

The APM does not specifically require the establishment of performance targets for incentive fee
payments. Although not applicable to the FDIC, the FAR contains guidance specifically related
to structuring incentive contracts that is illustrative of the controls that can be established.
Specifically, FAR Subpart 16.4 – Incentive Contracts, states that incentives are provided only for
achievement that surpasses targets and that decreases are provided for to the extent that such
targets are not met. The incentive increases or decreases should be applied to the performance
targets rather than minimum performance requirements.

The incentive fees on the CFM were earned for performance levels already required by the
contract, thus providing limited incentive to the contractor for exceptional service and little
benefit to the FDIC for the payments made. By establishing targets and tying incentive fees to



                                                 18
the achievement of those targets, exceptional service can be further encouraged and recognized.
Under the contract Statement of Work, the FDIC reserved the right to modify and/or discontinue
the incentive program at any time in the future. Restructuring the incentives to provide greater
value to the FDIC is warranted.

Recommendations

We recommend that the Director, DOA:

(6) Amend the APM to provide guidance on structuring incentive fee provisions, including
clearly establishing the performance standards and services that are considered above and below
standard.

(7) Seek modification of the incentive fee provisions in the CFM contract to provide specific
performance targets that must be exceeded to earn incentive fees.


CORPORATION COMMENTS AND OIG EVALUATION

The Directors of DOA and DOF provided a written response, dated March 24, 2006, to a draft of
this report. The FDIC response is presented in its entirety in Appendix II. A summary of
management’s response to the recommendations is in Appendix III.

The FDIC agreed with recommendations 1, 2, 3, and 4. The FDIC’s actions planned and taken
are sufficient to resolve these recommendations. However, recommendations 1, 2, and 3 will
remain open for reporting purposes until we have determined that the agreed-to corrective
actions have been completed and are effective. For recommendation 4, the corrective actions
taken by DOF are responsive, and the recommendation is closed for reporting purposes.
Although DOF promptly implemented corrective action on this recommendation, DOF did not
agree with our position that the costs that were not capitalized should be reported as funds put to
better use. Our position remains unchanged that the increase in value of an asset and
corresponding decrease in expenses result in funds available to be put to better use.

Concerning recommendation 2, DOA agreed with the intent of the recommendation but did not
concur with the specific recommendation to amend the APM to require monitoring and periodic
assessments of whether intended benefits and small business participation are being achieved on
bundled contracts. Based on statutory and regulatory requirements that have also been
determined by the FDIC to generally apply to the Corporation, the FAR provides guidance to
other federal agencies that handle bundled procurements. Specifically, the FAR requires
agencies to conduct annual reviews to assess the adequacy of contract bundling documentation
and justification and actions taken to mitigate the effects of necessary and justified contract
bundling on small businesses. In response to recommendation 1, DOA agreed to amend the
APM to include language on contract bundling using the FAR as a guideline. Consistent with
that approach, DOA management agreed, in a subsequent discussion, to consider all FAR




                                                19
provisions related to contract bundling as guidelines for amending the APM, including those
related to assessing whether the intended benefits and small business participation are being
achieved on bundled contracts.

The FDIC partially concurred with recommendations 5 and 6. For recommendation 5, DOA
agrees with the intent of the recommendation but does not concur with the specific
recommendation to amend the APM. No alternative action was provided for achieving the intent
of our recommendation. DOA stated that the APM currently contains language that requires
market research and justifications of noncompetitive procurements when the value of the
procurement is greater than $100,000. DOA indicated that these APM requirements apply only
to work outside the scope of the original contract. DOA indicated that the large-dollar-value
work order reviewed under the audit was determined by the contracting officer to be within the
scope of the contract because the contract made provisions for work orders. DOA stated that,
therefore, a justification for noncompetitive procurement was not necessary.

Our position remains unchanged that market research and written justifications supporting
decisions on the award of large-dollar-value work orders on existing contracts should be
specifically required, under certain circumstances, to ensure that fair and reasonable prices are
obtained. For example, the Statement of Work on the CFM contract provides that the FDIC will
solicit bids for repairs over $75,000 on a separate contract. Similarly, the CFM contract limits
work orders for interior office construction to $250,000. The dollar limitations on “in scope”
work support the use of competition for large-dollar-value procurement actions. However, the
FDIC decided not to pursue competition through soliciting bids but rather to noncompetitively
award the capital improvement project at an estimated cost of $2.3 million to the CFM contractor
without documented market research and a justification for a noncompetitive procurement. For
such large-dollar-value efforts in excess of contractual dollar limits, the decision to proceed with
a noncompetitive procurement should be better supported. Therefore, we reaffirm our
recommendation to revise the APM to address market research and justifications for
noncompetitive procurements on existing contracts. This recommendation is unresolved and will
be referred to the designated audit follow-up official for a final management decision.

For recommendation 6, DOA agrees with the intent of the recommendation but does not concur
with the specific recommendation to amend the APM. Since the award of the CFM contract,
DOA/ASB has addressed the need for increased understanding of performance-based contracts
by providing training to the contract specialists on performance-based contracting, incentives,
and performance management. DOA stated that to improve contract specialist and project
manager access to available information on this topic, DOA will modify its Web site for
Procuring Goods and Services to establish links to guidance and best practice information from
sources such as the Office of Federal Procurement Policy. The links were added to the Web site
on March 16, 2006. We verified that the links had been added and agree that the additional
training should increase the understanding of structuring incentive fee provisions. For
recommendation 6, the corrective actions taken by the FDIC are responsive, and the
recommendation is closed for reporting purposes.

The FDIC did not concur with recommendation 7. The FDIC responded that the next CFM
contract option must be exercised on April 1, 2006. Additionally, DOA does not believe that the



                                                20
current structure harms the FDIC. DOA believes that an attempt to renegotiate the incentive
provisions while attempting to exercise the next option would not be appropriate and could result
in a break in service of the current contract. Based on DOA’s recognition that the current
incentive structure could be improved and DOA’s commitment to consider this OIG report as the
acquisition strategy for the follow-on contract is formulated, we consider DOA’s actions to be
responsive to the intent of our recommendation, which is closed for reporting purposes.




                                               21
                                                                                  APPENDIX I




                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective and Scope

The overall objective of the audit was to determine whether the contract structure and the FDIC’s
management of the contract were adequate to ensure the economical and efficient management
of the Corporation’s Washington, D.C., area facilities. The scope of our review included CFM-
related expenditures for the period January 1, 2002 through March 31, 2005. The CFM-related
expenditures included the 2002 expenditures for 13 individual contracts that were bundled and
expenditures for the CFM/CESI contract covering the 2 contract base years from April 1, 2003
through March 31, 2005. Our audit was conducted from March 2005 through February 2006 in
accordance with generally accepted government auditing standards.

Methodology

To accomplish our objectives, we:

•   Gained an understanding of the relevant internal controls by reviewing the following:

       o FDIC’s Acquisition Policy Manual
       o FAR
       o Small Business Reauthorization Act of 1997
       o Small Business Administration Regulations
       o FDIC’s Legal Division Determinations on Contract Bundling
       o October 2002, Executive Office of the President, Office of Management and Budget,
         and Office of Federal Procurement Policy, Report, Contract Bundling, A Strategy for
         Increasing Federal Contracting Opportunities for Small Business
       o May 2004, GAO Report 04-454, Contract Management, Impact of Strategy to
         Mitigate Effects of Contract Bundling on Small Business Is Uncertain
       o March 2003, GAO Report 03-559T, Small Business Contracting, Concerns About the
         Administration’s Plan to Address Contract Bundling Issues
       o March 2000, GAO/GGD Report 00-82, Small Businesses, Limited Information
         Available on Contract Bundling’s Extent and Effects

•   Gained an understanding of the CFM contractor by reviewing the following OIG Reports:

       o Audit Report No. 05-010, Billing Review of Consolidated Facilities Management
         Services Contract Number 02-00349-C-CD, March 2005
       o Audit Report No. 03-011, Billing Review of Consolidated Engineering Services, Inc.
         Contract 98-01330 C-BK, January 2003




                                               22
                                                                                 APPENDIX I



•   Determined if the contract structure under the contract bundling methodology was properly
    justified in accordance with statute, SBA regulations, and the FAR, by:

    o Reviewing the FDIC’s market research efforts to determine whether contract bundling
      was necessary and justified, including identification of measurably substantial benefits
      and consideration of small business participation.
    o Interviewing DOA facilities management and contracting officials to determine if the
      FDIC developed a rationale to justify implementation of contract bundling and
      periodically monitored benefits achieved.
    o Examining DOA Acquisition Services Branch contract files to identify documentation
      supporting contract bundling and noncompetitive procurement.
    o Recalculating the FDIC’s expected cost savings from contract bundling over a 2-year
      period from April 1, 2003 through March 31, 2005 to determine reasonableness.
    o Reviewing invoices and payments to ensure that there was no duplication with the CFM
      contract.

•   Determined if the FDIC achieved economy through expected cost savings, by:

    o Identifying the 13 individual facilities contracts that existed prior to bundling and
      comparing individual costs (from the Accounts Payable Purchase Order System), by
      fiscal year and contract period, to determine whether the single CFM contract was more
      cost-effective than the 13 individual contracts.
    o Identifying general ledger account applications compared to invoice cost data to ensure
      proper application and financial transparency in corporate spending.
    o Interviewing DOF officials and examining financial data related to payments to the CFM
      contractor.

•   Determined how the facilities managers monitored costs and contract terms by:

     o Assessing whether the FDIC identified other organizations comparable to the FDIC and
       benchmarking costs and other contract terms to identify best practices.
     o Performing benchmarking analyses with two other agencies and comparing the results
       concerning facilities management with the FDIC CFM approach.
     o Determining if the FDIC performed benchmarking analysis by comparing FDIC-owned
       building cost data to industry norms taken from the Building Owners and Managers
       Association (BOMA) statistics to ensure the FDIC’s costs were comparable to industry
       norms.
     o Recalculating FDIC computations and verifying BOMA data to ensure accuracy.
     o Reviewing GAO reports on contract bundling to determine how other government
       agencies implement contract bundling as compared to the FDIC.




                                              23
                                                                                   APPENDIX I



•   Determined efficient monitoring and oversight by FDIC management of the Corporation’s
    Washington, D.C., facilities by:

     o Comparing independent contractors’ facility condition assessment reports of each
       FDIC-owned building to the capital improvement listing to ensure that recommended
       building improvements were being implemented to ensure a safe and well-maintained
       work environment and the continuity of the building management program.
     o Determining whether the Oversight Manager monitored the number of small business
       subcontractors contracted by the CFM contractor in order to avoid adverse effects of
       contract bundling on small business.
     o Assessing the Oversight Manager’s review of task orders for subcontractor costs and
       janitorial services to ensure that proper contract implementation and performance
       standards were achieved.
     o Reviewing prior audits regarding procurement and FDIC implementation of audit
       recommendations.

Reliance on Computer-based Data, Internal Controls, Fraud and Illegal Acts, and
Compliance with Laws and Regulations

We tested CESI’s computer-based invoice/cost data for the F Street Column Project by
comparing invoices data to comparative data from the FDIC’s Accounts Payable Purchase Order
(APPO) system to ensure that CESI’s invoice data were consistent with FDIC data. Also, we
performed full-population testing on data from the FDIC’s APPO system to determine the
accuracy and reliability of computer-generated data. We compared control totals to ensure the
population was complete and to identify any anomalies. As a result, we verified that the
computer-generated data from the APPO system were reliable, accurate, and consistent.
Detailed testing of contractor invoices was performed in the billing review of Audit Report
No. 05-010, Consolidated Facilities Management Service Contract.

We gained an understanding of the FDIC’s control environment over the CFM contract and
bundling process by developing an internal control test program, which identified risks, control
objectives, control techniques, and testing methodologies. Additionally, we reviewed the
FDIC’s 2005 Agenda: Corporate Performance Objectives and Results, and the 2005-2010
Strategic Plan to determine whether the FDIC had established performance goals related to
budgeted resources, cost controls, and related benchmarks. The FDIC established the goal of
reduced corporate operating spending and continued support for a strong internal control risk
management program.

Additionally, our audit program included audit steps for providing reasonable assurance of
detecting fraud and illegal acts. None were identified.




                                               24
                                                                                   APPENDIX I



We identified, considered, and tested compliance, as appropriate given our audit objectives, with
the following laws, regulations, policies, and procedures that were applicable to the CFM,
contract bundling, and performance-based contracts:

       •   Small Business Act, as amended;
       •   Small Business Reauthorization Act of 1997;
       •   SBA Regulations contained in Title 13 of the Code of Federal Regulations (C.F.R.);
           and FAR, Title 48, C.F.R.




                                               25
Appendix II
     APPENDIX II




27
     APPENDIX II




28
     APPENDIX II




29
                                                                                                                                                                              APPENDIX III

                                                    MANAGEMENT RESPONSE TO RECOMMENDATIONS

          This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of report issuance.

                                                                                                                                                                                              Open
            Rec.                                                                                               Expected                        Monetary                  Resolved:a            or
           Number                Corrective Action: Taken or Planned/Status                                 Completion Date                    Benefits                  Yes or No           Closedb
                        DOA concurred with the recommendation and will amend the
               1        APM. DOA will issue Interim Policy Guidance.                                           May 15, 2006                          0                       Yes                  Open
                        DOA concurred with the intent of the recommendation but did
                        not concur with the specific recommendation to amend the APM
                        to require monitoring and periodic assessments of bundled                              May 15, 2006                          0                       Yes                  Open
                        contracts. However, DOA management agreed, in a subsequent
               2        discussion, to consider all FAR provisions related to contract
                        bundling as guidelines for amending the APM, including those
                        related to assessing whether the intended benefits and small
                        business participation are being achieved on bundled contracts.
                        DOA concurred with the recommendation and will assess
               3
                        whether the CFM contract is achieving intended benefits.                               June 30, 2006                      0                          Yes                  Open
                        DOF concurred with recommendation to capitalize the cost of                                                         $1,220,023c
               4                                                                                             March 15, 2006                                                  Yes              Closed
                        the F Street column collar installation project.                                                               Funds Put to Better Use
                        DOA concurred with the intent of the recommendation but did
                        not concur with the specific recommendation to amend the APM
               5                                                                                                                                     0                        No                  Open
                        to include language for large-dollar-value work orders on
                        existing contracts.
                        DOA concurred with the intent of the recommendation but did
                        not concur with the specific recommendation to amend the APM
               6        to provide guidance on structuring the incentive fee provision.                      March 16, 2006                          0                       Yes              Closed
                        Instead, DOA has established a training link on the DOA Web
                        site to guidance and best practice information.
                        DOA did not concur with the recommendation to seek
                        modification of the incentive fee provision. DOA agreed that
                                                                                                                                         $193,131 Questioned
                        the incentive provision might be improved but decided not to
                                                                                                                                                Costs
               7        renegotiate the incentive provision before the next contract                         March 24, 2006                                                  Yes              Closed
                                                                                                                                        $318,748 Funds Put to
                        option exercise. However, DOA will consider this OIG report
                                                                                                                                              Better Use
                        in formulating the acquisition strategy for the follow-on
                        contract. The proposed alternative action is responsive.
      a
        Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                     (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                     (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                         management provides an amount.
      b
        Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.
     C
        Based on a subsequent DOA and DOF review of the invoices associated with the F Street column collar installation project, DOA and DOF determined that $1.32 million in associated costs
should be capitalized.

                                                                                                 30
